No. _________
In the
Supreme Court of the United States
FRANK J. LAWRENCE, JR.,
Petitioner,
v.
UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF MICHIGAN,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
DENNIS DUBUC
COUNSEL OF RECORD
12618 10 MILE ROAD
SOUTH LYON, MI 48178
PHONE: (248) 486-5508
LAWPLUS@SBCGLOBAL.NET
Counsel for Petitioner

QUESTIONS PRESENTED
Within a four month span, Petitioner filed
applications for admission to the bars of eight federal
courts, including the United States Court of Appeals
for the Sixth Circuit. All of those applications were
granted, with the exception of the one submitted to
the United States District Court for the Western
District of Michigan.
1.
Notwithstanding the Sixth Circuit’s use of the
“abuse of discretion” standard to review the District
Court’s adverse admission decision, does the decision
of the Court of Appeals impermissibly conflict with its
own, recent declaration that Petitioner is “duly
qualified” to practice law in its own Court? Should
Certiorari be granted in order to secure and maintain
uniformity of admission decisions?
2.
Did the District Court use its unbridled
discretion to impermissibly assess First Amendment
activities of Petitioner, in particular, his criticism of
public officials? Should Certiorari be granted in order
to declare that constitutionally protected, expressive
activities cannot be used as a basis to deny an
application for admission to practice law?

i

PARTIES TO THE PROCEEDING
Petitioner
Frank J. Lawrence, Jr. is an individual. There
are no corporate affiliations.
Respondent
Respondent United States District Court for the
Western District of Michigan is an Article III Court.

RELATED CASES
●

In Re: Frank J. Lawrence, Jr., No. 1:17-mc0098, U. S. District Court for the Western
District of Michigan.
Judgment entered
February 2, 2018.

●

In Re: Frank J. Lawrence, Jr., No. 18-1131, U.
S. Court of Appeals for the Sixth Circuit.
Judgment entered January 14, 2019.

ii

TABLE OF CONTENTS
Questions Presented.......................................................i
Parties to the Proceeding...............................................ii
Table of Contents..........................................................iii
Table of Cited Authorities..............................................v
Petition for Writ of Certiorari........................................1
Opinions Below...............................................................1
Statement of Jurisdiction..............................................1
Constitutional and Statutory Provisions Involved...1, 2
Statement of the Case....................................................2
Reasons for Granting The Writ.....................................7
I.

Notwithstanding the Sixth Circuit’s use of
the “abuse of discretion” standard of review,
its Opinion conflicts with its own, recent
decision that Petitioner is “duly qualified” to
practice law in the Court of Appeals.
Certiorari should be granted in order to
secure and maintain uniformity of admission
decisions…………………………………………7

II.

The District Court used its unbridled
discretion to impermissibly assess First
Amendment activities of Petitioner, in
particular, his criticism of public officials.

iii

Certiorari should be granted in order to
declare that constitutionally protected,
expressive activities cannot be used as a
basis to deny an application for admission to
practice law…………………………………….10
Conclusion....................................................................14
Appendix…………………………………………………..1a
Appendix A
Opinion and Judgment
United States Court of Appeals for the Sixth
Circuit
(January 14, 2019) ………………………..App. 1a
Appendix B
Opinion and Order Denying Admission to the
United States District Court for the Western
District of Michigan
(February 2, 2018)………………….…….App. 21a
Appendix C
Order denying reconsideration
United States Court of Appeals for the Sixth
Circuit
(February 19, 2019)………………………App. 61a

iv

TABLE OF CITED AUTHORITIES
Cases
Baird v. State Bar of Ariz., 401 U.S. 1 (1971)…………9
Barrett v. Harrington, 130 F.3d 246 (6th Cir. 1997)..13
Dean v. Byerley, 354 F.3d 540 (6th Cir. 2004)……….11
Ex parte Burr, 22 U.S. (9 Wheat.) 529,
6 L. Ed. 152 (1824)…………………………………7
In Re Mosher, 25 F.3d 397 (6th Cir. 1994)..……………8
In Re Snyder, 472 U.S. 634,
86 L. Ed. 2d 504 (1985)……………………………8
Konigsberg v. State Bar of Cal., 366 U.S. 36 (1961).....9
New York Times Co. v. Sullivan, 376 U.S. 254,
11 L. Ed. 2d 686…………………………………..13
Perry v. Sindermann, 408 U.S. 593, 597,
33 L. Ed. 2d 570…………………………………..12
Standing Committee on Discipline v. Yagman,
55 F3d 1430 (9th Cir 1995)………………………13
Stilley v. Bell, 155 Fed. Appx. 217 (6th Cir. 2005)….....5
Statutes
28 USC §1254(1)……………………………………………1

v

Rules
Canon 3(A)(4) of the Code of Judicial Conduct for
United States Judges……………………………………...3
Rule 15, Section 1, of the Michigan Supreme Court
Rules Concerning the State Bar of Michigan,
paragraph 7…………………………………………………3

vi

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petitions for a Writ of
Certiorari to review the Judgment of the United
States Court of Appeals for the Sixth Circuit in this
case.
OPINIONS BELOW
The Opinion of the United States Court of
Appeals for the Sixth Circuit is unpublished and
reproduced at Pet. App. 1a. The Order of the United
States Court of Appeals for the Sixth Circuit denying
reconsideration is unpublished and reproduced at Pet.
App. 61a. The Opinion of the United States District
Court for the Western District of Michigan is
unpublished and is reproduced at Pet. App. 21a.
STATEMENT OF JURISDICTION
The Judgment of the United States Court of
Appeals was issued on January 14, 2019. Pet. App. 1a.
Reconsideration of that Judgment was denied on
February 2, 2019. Pet. App. 21a. On May 14, 2019,
Justice Sotomayor extended the time in which to file a
Petition for Writ of Certiorari to July 19, 2019. The
jurisdiction of this Court is invoked under 28 USC
§1254(1).
CONSTITUTIONAL AND
STATUTORY PROVISIONS
INVOLVED
This case
provision:

involves

the

following

1

constitutional

Amendment I
“Congress shall make no law respecting
an establishment of religion, or
prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the
press; or the right of the people
peaceably to assemble, and to petition
the government for a redress of
grievances.”
STATEMENT OF THE CASE
Within a four month span, Petitioner Frank
Lawrence filed applications for admission to the bars
of eight federal courts, including the United States
Court of Appeals for the Sixth Circuit. All of those
applications were granted, with the exception of the
one submitted to the United States District Court for
the Western District of Michigan. In affirming that
one denial, the Sixth Circuit determined that the
district court’s decision was not “arbitrary,”
“discriminatory” or “irregular.” Pet. App. 19a
Two aberrations took place between the time
when Petitioner submitted his application for
admission to the Western District of Michigan and
date upon which his application was rejected: First,
the State Bar of Michigan informed Petitioner that
Western District Chief Judge Robert Jonker’s
admissions clerk had covertly sought information
about Petitioner that is contained within the
confidential files of the Character and Fitness
Department.1 The admissions clerk stated that these
Under Michigan law, the information that Chief
Judge Jonker instructed his clerk to investigate about
1

2

efforts were made after Google searches were
conducted by Court staff regarding Petitioner and past
newspaper articles were located. Petitioner responded
by requesting the clerk’s testimony in order to show
that the Chief Judge violated Canon 3(A)(4) of the
Code of Judicial Conduct for United States Judges and
that the Chief Judge should have been disqualified
from personally selecting the three panelists who
decided this matter on his behalf. Pet. App. 22a
Second, while Petitioner’s application was
pending, the Sixth Circuit issued an Opinion and
Order, explaining how Western District of Michigan
Judge Paul Maloney had abused his discretion in his
efforts to block Petitioner’s pending civil rights claims
against Michigan licensing officials in a separate case:
Here, by refusing to lift the stay, [Judge
Paul Maloney] refused to adjudicate the
merits of the claims raised in Lawrence’s
initial complaint. There is no indication
that [Judge Paul Maloney] intends to
adjudicate the merits of that complaint at a
later time, as the case remains stayed,
apparently indefinitely. * * * [Judge Paul
Maloney] gave no reason for failing to lift
the stay and, in fact, acted inconsistently
with that ruling by adjudicating the motion
to amend. * * * Further, [Judge Paul
Maloney’s] adjudication of the motion to
amend was inconsistent with [his] order
denying the motion to lift the stay. The
Petitioner is protected from unauthorized disclosure.
See Rule 15, Section 1, of the Michigan Supreme Court
Rules Concerning the State Bar of Michigan,
paragraph 7.
3

result of [Judge Paul Maloney’s] actions
was the denial of the motion to amend in
the absence of a final judgment that would
allow Lawrence to challenge that order on
appeal and the apparently indefinite stay
of Lawrence’s initial complaint.
Lawrence v. Parker, No. 17-1319, U. S. Court of
Appeals for the Sixth Circuit. Order entered December
22, 2017.
The existence of the above two irregularities are
what differentiate the receptiveness of Petitioner’s
application in the Western District of Michigan from
the other seven courts in which Petitioner’s
applications were approved with admission.
Prior to the hearing in the district court,
Petitioner requested a document “akin to a bill of
particulars” because it was not clear what precisely
was being used as a basis to question his character.
Pet. App. 25a. The lower court refused to address this
request. Petitioner and the undersigned were the only
two individuals who appeared at the proceeding.
During the hearing, Petitioner’s statements were
unchallenged by the submission of any contrary
evidence or testimony. Petitioner had to wait until the
decision was issued in order to find out what the
grounds were for his rejection and what evidence
outside the record was relied upon in reaching the
district court’s conclusions.
The district court’s
opinion could not have been written as it was without
utilizing information outside of the record.
In rejecting Petitioner, the district court drew
inferences and conclusions without the submission of
any contrary record evidence and without notice. For
example, the panel found that Petitioner lacked
4

candor by “struggling to recall basic facts” concerning
a misdemeanor charge 17 years earlier. Pet. App. 53a2
The district court’s dedication of so much discussion to
the antiquated events leading to an August, 2000
ordinance violation suggests a questionable motive
because Petitioner’s record in that arena has been
unblemished for the subsequent 19 years of his life.
Most importantly, the other reasons cited by the
district court panel concerned events that took place
over 10 years ago and they centered on Petitioner’s
constitutionally protected, expressive activities: (1) a
letter written in 2006 explaining why he felt that he
would have been treated more favorably if he were
black, (2) calling the University of Michigan in 2006 to
complain about the way that he was treated by a
university employee, (3) hosting a website critical of
Michigan licensing officials, (4) picketing the law office
of the President of the Michigan Board of Law
Examiners in 2006, and (5) mailing out hundreds of
questionnaires in 2008 seeking adverse information
about the Board’s members from their former clients
and acquaintances. Id.3
What the panel found to be “basic facts” would
have been difficult for most people to recall 17 years
after the event (“What time of day did this happen? …
Was it daylight or dark out? … What day of the week
was it? … Was it during the week or was it a
weekend?”). Importantly, there is no evidence in the
record that Petitioner’s failure to recall these details
was anything less than honest.
3
The Sixth Circuit cited Stilley v. Bell, 155 Fed.
Appx. 217 (6th Cir. 2005) in support of its decision. In
Stilley, the challenged conduct involved “pursuing an
appeal, contrary to a client's wishes, and continuing to
pursue the appeal after entry of an order terminating
2

5

The Sixth Circuit concluded that Petitioner’s
expressive activities were subject to scrutiny not
because of their “content,” but because of “the way in
which Lawrence chose to criticize the officials”:
It is not the fact that Lawrence criticized bar
officials that is concerning. He certainly has
a First Amendment right to do so. Nor is it
the content of Lawrence’s speech that
matters. Of crucial importance is the way in
which Lawrence chose to criticize the
officials—calling their employers, sending
letters to their former clients and friends,
and picketing their places of employment.
Pet. App. 19a
While the Sixth Circuit was careful to deny that
“the content” of Petitioner’s speech was the basis for
rejection, it conspicuously avoided addressing what
would have happened if Petitioner had picketed with a
sign praising the President of the Michigan Board of
Law Examiners, or making phone calls commending
the University of Michigan employee, or sending
hundreds of questionnaires seeking favorable
information about the Board’s members. Indeed, it

the representation,” “failing to convey a settlement
offer to a client,” and “knowingly disobeying the rules
of a tribunal.” By contrast, Petitioner violated no Rule
of Professional Conduct, Court Order, or Court Rule.
Also, Petitioner was not an attorney during the time
that he engaged in his expressive activities. That
distinction with Stilley – standing alone – is
significant.
6

was the content of Petitioner’s speech that resulted in
his rejection.
Supreme Court’s review is warranted for these
reasons.
REASONS FOR GRANTING THE WRIT
I.

Notwithstanding the Sixth Circuit’s use
of the “abuse of discretion” standard of
review, its opinion conflicts with its
own, recent decision that petitioner is
“duly qualified” to practice law in the
Court of Appeals. Certiorari should be
granted in order to secure and
maintain uniformity of admission
decisions.

The Sixth Circuit acknowledged the conflict
that exists between its own decision that Petitioner is
“duly qualified” and the opposite conclusion drawn by
the United States District Court for the Western
District of Michigan. Pet. App. 17a. The Sixth Circuit
attempted to resolve that incongruity by explaining
how its review of the matter was limited via the
“abuse of discretion” standard:
Even if we would reach a different conclusion
reviewing Lawrence’s petition de novo—as it
appears we did, given that he is admitted in
our court—we cannot say the district court
abused its discretion.
Pet. App. 17a
In Stilley v. Bell, 155 Fed. Appx. 217 (6th Cir.
2005), the Sixth Circuit cited Ex parte Burr, 22 U.S. (9
7

Wheat.) 529, 530, 6 L. Ed. 152 (1824) for the
proposition that “the exercise of the authority to
admit, deny, or suspend an attorney is left to the
discretion of the district court.” Stilley, 155 Fed. Appx.
at 219. The Sixth Circuit in In Re Mosher, 25 F.3d
397, 399-400 (6th Cir. 1994) cited In Re Snyder, 472
U.S. 634, 643 n.4, 646, 86 L. Ed. 2d 504, 105 S. Ct.
2874 (1985) as its authority that “this Court reviews a
denial of an application for admission to practice
before a district court for abuse of discretion.” Snyder
was a disbarment case, incidentally one in which this
Court found that an attorney’s “ill-mannered”
correspondence with a court secretary was not
disqualifying. Snyder does not say that the abuse of
discretion standard governed the Sixth Circuit’s entire
review of the matter sub judice.4
More relevant to this Petition, however, is that
the Sixth Circuit’s decision that Petitioner is “duly
qualified” to practice law lacks uniformity with the
decision of the Western District of Michigan. And this
disparity cannot be summarily dismissed by
employing an abuse of discretion standard because a
federal “right” exists here in an applicant’s ability to
earn a living in his chosen profession. This Court has
However, assuming arguendo that the abuse of
discretion standard does apply to the admission
decision itself, it cannot and should not apply to the
factual determinations relied upon by the district
court. For example, there was no factual basis for the
district court to conclude that Petitioner lacked candor
about his failure to recall irrelevant details from 17
years earlier. There is no contrary evidence in the
record in which the district court could have
permissibly drawn such a conclusion.
4

8

said that “The practice of law is not a matter of grace,
but of right for one who is qualified by his learning
and moral character.” Baird v. State Bar of Ariz., 401
U.S. 1, 8 (1971). Surely, a significant federal “right”
such as the ability to earn a living in a chosen
profession cannot be arbitrarily dismissed by simply
declaring that “the exercise of the authority to admit,
deny, or suspend an attorney is left to the discretion of
the district court.” Pet. App. 31a
The Sixth Circuit’s Opinion acknowledges how
bar admission requirements can be “easily adapted to
fit personal views and predilections, [and] can be a
dangerous
instrument
for
arbitrary
and
discriminatory denial of the right to practice law,” and
then it sweepingly concluded that the Western District
of Michigan’s decision is not “irregular”:
We are mindful of the Supreme Court’s
admonition in Konigsberg that such a
“vague qualification, which is easily
adapted to fit personal views and
predilections, can be a dangerous
instrument
for
arbitrary
and
discriminatory denial of the right to
practice law.” 353 U.S. at 263. But we
are satisfied here that the denial was not
arbitrary or discriminatory. Because we
cannot say that the district court’s
decision “was irregular, or was flagrantly
improper,” D.H. Overmyer Co. v. Robson,
750 F.2d 31, 33 (6th Cir.1984) (quoting
Burr, 22 U.S. at 531), we affirm.
Pet. App. 19a

9

In addition to standing in stark contrast to the
other seven federal decisions that found Petitioner to
be duly qualified to practice law, the Western District
of Michigan’s decision took the unprecedented step of
prohibiting Petitioner from reapplying for three years.
Historically, the Western District has denied
applications for one year. See former Local Rule
83.1(m)(iii)(C). It is impossible to understand how the
Sixth Circuit could have concluded that “… we cannot
say that the district court’s decision was irregular …”.
Pet. App. 19a
The consequence of the Sixth Circuit’s decision
is the absurd result that Petitioner can now handle
any appeal in the United States Court of Appeals for
the Sixth Circuit which has emanated from the
Western District of Michigan, however he is prohibited
from providing representation in those same cases in
the district court. Moreover, if the Sixth Circuit were
to remand an appeal that was handled by Petitioner to
the district court, Petitioner is prohibited from
following those cases down to the lower level.
The author of the Sixth Circuit’s decision in
Stilley who wrote “one court's decision to admit an
applicant does not diminish another court's discretion
to refuse to do so” Id. 155 Fed. Appx. at 224, was
disturbingly unconcerned about promoting uniformity
in federal courts decisions. Uniformity is a primary
concern to the interests of this Court. This concern for
uniformity should be especially true here, where one’s
profession is at stake and incongruous admission
decisions such as those in the matter sub judice
suggest that Petitioner was arbitrarily targeted by one
particular district court.
II.

The district court used its unbridled
discretion to impermissibly assess First
10

Amendment activities of petitioner, in
particular, his criticism of public officials.
Certiorari should be granted in order to
declare that constitutionally protected,
expressive activities cannot be used as a
basis to deny an application for admission
to practice law.
Never, in the history of this Court, has it
rejected a bar applicant for conduct that was not
violative of a promulgated professional conduct rule,
statute or court rule. The Sixth Circuit’s decision
represents a dangerous transformation where federal
bar applicants will no longer be able to predetermine
whether their lawful, expressive activities will result
in future character rejections.
For example, after comparing the decision in
this case with Dean v. Byerley, 354 F.3d 540 (6th Cir.
2004), a prospective bar applicant who desires to
peacefully protest the decisions of state officials would
not know whether his future, expressive conduct
would be disqualifying.5 Here, both the Sixth Circuit
and the district court concluded that Petitioner’s
picketing activities “could discourage clients from
retaining the Board member’s services.” Pet. App. 14a.
The same, hypothetical argument could have been
made about the plaintiff in Dean or any other person
who pickets a state official who operates a side
business. However, because federal law protected Mr.
Dean’s right to picket, that was the end of the matter

In Dean, the Sixth Circuit determined that a
disgruntled Michigan Bar applicant had a
constitutionally protected right to picket outside of the
residence of a Michigan character and fitness official.
5

11

and the Sixth Circuit upheld his right to do so outside
of the state official’s residence.
This Court should grant certiorari to declare
that lawful activities cannot form the basis for
character rejection. This Court has previously stated:
For at least a quarter-century, this Court
has made clear that even though a person
has no “right” to a valuable governmental
benefit and even though the government
may deny him the benefit for any number of
reasons, there are some reasons upon which
the government may not rely. It may not
deny a benefit to a person on a basis that
infringes his constitutionally protected
interests -- especially, his interest in freedom
of speech. For if the government could deny
a benefit to a person because of his
constitutionally
protected
speech
or
associations, his exercise of those freedoms
would in effect be penalized and inhibited.
This would allow the government to “produce
a result which [it] could not command
directly.” Speiser v. Randall, 357 U.S. 513,
526. Such interference with constitutional
rights is impermissible.
Perry v. Sindermann, 408 U.S. 593, 597; 33 L. Ed. 2d
570; 92 S. Ct. 2694 (1972).
Assuming arguendo that Petitioner had
improper, underlying motives in his expressive
activities, a review of those motives should be offlimits because the “freedom to criticize public officials
and expose their wrongdoing is at the core of First
Amendment values, even if the conduct is motivated
12

by personal pique or resentment.” Barrett v.
Harrington, 130 F.3d 246, 263 (6th Cir. 1997).
The word “attack” is nothing more than a
subjective label. The Western District of Michigan’s
Opinion labels Petitioner’s protests as an “attack” on
Michigan officials, but this Court has said “debate on
public issues should be uninhibited, robust and wideopen, and . . . may well include vehement, caustic, and
sometimes unpleasantly sharp attacks on government
and public officials”. New York Times Co. v. Sullivan,
376 U.S. 254, 270, 11 L. Ed. 2d 686, 84 S. Ct. 710
(1964) (emphasis added). The same label could be
placed on the comments that President Donald Trump
frequently makes in his efforts to expose bias in the
judicial decision-making process. While some have
chosen to label President Trump’s criticism as
“attacks,” many other citizens (including Petitioner)
applaud the President’s efforts to expose what he
perceives as judicial improprieties.
Labeling
Petitioner’s expressive activities as “attacks” does not
render the censorship of those activities a legitimate
judicial function.
The Sixth Circuit’s decision
indicates that the President of the United States could
be ineligible for admission to practice law due to his
public comments about certain judicial officers.
This Court should also declare that statements
“impugning the integrity” of a public official are not
subject to scrutiny unless a judicial determination is
first made that those statements are false.
As
explained in Standing Committee on Discipline v.
Yagman, 55 F3d 1430, 1438 (9th Cir 1995):
... statements impugning the integrity of
a judge may not be punished unless they
are capable of being proved true or false;
statements of opinion are protected by
13

the First Amendment unless they “imply
a false assertion of fact.” 55 F3d at 1438
(cite omitted). Similarly, “statements of
‘rhetorical hyperbole’ aren’t sanctionable,
nor are statements that use language in
a ‘loose, figurative sense’.” Id.
Notwithstanding the fact that it is unpublished,
the Sixth Circuit’s decision will have a chilling effect
on federal bar applicants because they will be left
unsure whether to engage in expressive activities that
could subjectively be labeled as “attacks” on
government and public officials.
Certiorari is
necessary in order to clarify that expressive conduct
protected by law cannot be cited as a basis for
rejection to a federal bar.
This Court should grant certiorari in this matter.
CONCLUSION
For the reasons set forth above, the Petition for
a Writ of Certiorari should be granted.
Dennis Dubuc
Counsel for Petitioner
12618 10 Mile Road
South Lyon, MI 48178
(248) 486-5508
Dated: July 19, 2019

14

